8upfc£M& (Wr Of- The United States
fc

\
•vi

u ■

Supreme Court, U.S.
FILED

no. Sao'ocao

V-.

w v

OFFICE OF

> An ■no.i>A2o-cfe33 APPELLATE COURTS

IN THE

MAR 16 2021

Supreme Court of Minnesota

FILED

APR 2 1 2021
EMEM UFOT UDOH,
OFFICE OF THE CLERK

Petitioner,
vs.

STATE OF MINNESOTA,
Respondent.

On Petition for a Writ of Review

&rtfbran

To The MINNESOTA COURT OF APPEAL’S IN Am nWAflO-0633
PETITION FOR A WRIT OF REVIEW Folk CtftTiofcAAj

KEITH ELLISON
State Attorney General
1800 Bremer Tower
445 Minnesota Street
St Paul, MN 55101

EMEM U UDOH
Pro Se Litigant
7600 525th Street
Rush City, MN 55069

MICHAEL O. FREEMAN
Hennepin County Attorney
JORDAN W. RUDE
Assistant Hennepin County Attorney
C-2000 Government Center
Minneapolis, MN 55487
ATTORNEYS FOR RESPONDENT

PETITIONER (PRO SE)

(Supreme Gouer OpUHiTBb Statest

TO: SUPREME COURT OF MINNESOTA:
Petitioner, Emem Ufot Udoh. respectfully submits this Petition for Review.

QUESTIONS PRESENTED
1. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented on grounds consistent with Petitioner’s actual innocence is:
Issue One: Whether Petitioner Is Entitled To An Acquittal Or New Trial On The Newly
Discovered Exonerating Evidence Showing Actual Innocence Based On Recantations Of Key
Material Witnesses’ Testimony In Light Of The Evidence Received At The Held July 27, 2018.
July 30, 2018 Through August 01. 2018 Evidentiary Hearing?
Apposite Authority
Larrison v. United States, 24 F. 2d 82 (7th Cir. 1928)
Rainer u. State, 566 N.W.2d 692 (Minn. 1997)
Herrera v, Collins, 506 U.S. 390 (1993)?
2. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented is:
Issue Two: Whether Petitioner Received Minn. Const. Art I, §6, §7, §10 And Sixth
Amendment Ineffective Assistance Of Trial Counsel Under State v. Nicks, 831 N.W.2d 493
(Minn. 2013) And Strickland v. Washington For Failure To (A) Interview And Investigate To
Discover The New Exonerating Evidence Showing Actual Innocence Based On Recantations Of
Key Material Witnesses’ Testimony In Ground One. (B) Advise Petitioner His Due Process
Right To Consular Assistances, (C) Object To Credibility Vouching By Ms. White, And (D)
Object To Inadmissible Interrogatory Recordings And Statements Obtained Without Consent,
Miranda And Tennessen Warnings?
Apposite Authority
State v. Nicks, 831 N.W.2d 493, 503 (Minn. 2013)
Strickland u. Washington, 466 U.S. 668, 690 (1984)
3. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented is:
Issue Three: Whether Petitioner Received Minn. Const. Art I, §6, §7, §10 And Sixth
Amendment Ineffective Assistance Of Appellate Counsel Under State v. Nicks, 831 N.W.2d 493
(Minn. 2013) And Strickland v. Washington For Failure To Effectively And Adequately Raise
Ineffective Assistance Of Trial Counsel Claim During Direct Appeal For Trial Attorney Failure
To (A) Interview And Investigate To Discover The New Exonerating Evidence Showing Actual
Innocence Based On Recantations Of Key Material Witnesses’ Testimony In Ground One, (B)
Petition By Udoh - Page 1

Advise Petitioner His Due Process Right To Consular Assistances, (C) Object To Credibility
Vouching By Ms. White, And (D) Object To Inadmissible Interrogatory Recordings And
Statements Obtained Without Consent, Miranda And Tennessen Warnings?
Apposite Authority
State v. Nicks, 831 N.W.2d 493, 503 (Minn. 2013)
Strickland v. Washington, 466 U.S. 668, 690 (1984)
4. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented on grounds consistent with Petitioner’s innocence is:
Issue Four: Whether The Government And Ms. White Violated Petitioner’s Clearly
Established Minn. Const. Art I, §6, §7, §10 And Constitutional Due Process Right Of The Fifth
And Fourteenth Amendment Under Brady v. Maryland And Its Progeny In Light Of The
Evidence Received At The Held July 27. 2018. July 30. 2018 Through August 01. 2018
Evidentiary Hearing Which Materially Impacted The Fairness Of Petitioner’s Trial?
Apposite Authority
Brady v. Maryland, 373 U.S. 83 (1963)
State v. Zeimet, 310 N.W.2d 552 (Minn. 1981)
State v. Hall, 315 N.W.2d 223 (Minn. 1982)
State v. Schwantes, 314 N.W.2d 243 (Minn. 1982)
State v. Hunt, 615 N.W.2d 294 (Minn. 2000)
Gorman v. State, 619 N.W.2d 802 (Minn. Ct. App. 2000)
State v. Miramontes, 2008 WL 2572818 (Minn. Ct. App. 2008)
5. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented on grounds consistent with Petitioner’s innocence is:
Issue Five: Whether The Government And Ms. White Violated Petitioner’s Clearly
Established Minn. Const. Art I, §6, §7, §10 And Constitutional Due Process Right Of The Fifth
And Fourteenth Amendment Under Mooney V. Holohan, 294 U.S. 103, 112 (1935); Pyle V.
Kansas, 317 U.S. 213 (1942); Napue V. Illinois, 360 U.S. 264, 269 (1959); Giglio V. United
States, 405 U.S. 150, 152 - 55 (1972) And Their Progeny In Light Of The Evidence Received At
The Held July 27. 2018. July 30. 2018 Through August 01. 2018 Evidentiary Hearing That
Seriously Undermines The Fairness Of Petitioner’s Trial?
Apposite Authority
Mooney v. Holohan, 294 U.S. 103 (1935)
Pyle v. Kansas, 317 U.S. 213 (1942)
Napue u. Illinois, 360 U.S. 264 (1959)
Giglio v. United States, 405 U.S. 150 (1972)

Petition By Udoh - Page 2

6. Rulings Below: The District Court denied relief and the Court of Appeals affirmed. The federal
constitutional claim presented is:
Issue Six. Whether Ms. White’s Credibility Vouching Of K.K.W. And K.C.W. Testimony
Violated Petitioner’s Clearly Established Minn. Const. Art I, §6, §7, §10, Fifth And Fourteenth
Amendment Constitutional Rights?
Apposite Authority
State v. Reardon, 245 Minn. 509 73 N.W.2d 192 (1955)
State v. Mayhorn, 720 N.W.2d 776 (2006)
State v. Ramey, 721 N.W.2d 294 300 (Minn. 2006)
OPINIONS BELOW
The opinion of the Minnesota Court of Appeals decision filed on February 01, 2021 and is
unpublished and appears in the Appellate Court record to the Petition for Review.
JURISDICTION
The Supreme Court of Minnesota has appellate jurisdiction in all cases. This Court’s
jurisdiction is invoked under Minn. R. Civ. App. Pro. 117, Minn. Const. Art VI, §2 and in light of
the federal constitutional and due process grounds consistent with Petitioner’s innocence in the
Appellate Court record to the Petition for Review.
LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
PROCEDURAL HISTORY
Appellant Adopts the “Procedural Posture And [Findings] Of Facts” described in the
District Court Orders dated June 15, 2018, February 5, 2019 and March 02, 2020 for brevity
purposes.

STATEMENT OF THE CASE AND FACTS
On April 10, 2018, Appellant initiated this State post-conviction action raising several
issues or claims of constitutional violations and seeking reliefs. Amongst the issues or claims
Petition By Udoh - Page 3

raised for post-conviction relief, Appellant raised the Ground that - Appellant is entitled to an
acquittal and release based on the newly discovered exonerating evidence showing actual
innocence which is based on recantations of key material witnesses’ testimony for relief as
described in Appellant’s first post-conviction petition.
I.

First1 Evidentiary Hearing In 2018 Was Held And Appellant Discovered Newly
Discovered Evidence For Ineffective Assistance of Trial And Appellate
Counsel, Prosecutorial Misconducts, Brady/Discovery Violation, Giglio
Violation, And Tome v. United States, 513 US 150 (1995) Standards For
Admission Of Evidence Under Rule 801(d)(1)(B)
See (Vol. I; Vol. II; Vol III; and Vol. IV) for brevity purposes.

II.

The Recanting Witnesses’ (K.K.W., and K.C.W.) Were Apprised Of Their Fifth
Amendment Right
See (Vol II, Tr. 158 - 221) and (Vol. II, Tr. 232 - 327) for brevity purposes.

III.

Evidentiary Hearing Testimony Of The Recanting Witnesses’ (K.K.W., and
K.C.W.) For Newly Discovered Evidence, Ineffective Assistance of Trial And
Appellate Counsel, Prosecutorial Misconducts, Brady/Discovery Violation,
Giglio Violation, and Tome v. United States, 513 US 150 (1995) Standards For
Admission Of Evidence Under Rule 801(d)(1)(B)
See (Tr. 159 - 348). The recantation affidavits from K.K.W and K.C.W were re-signed by

K.K.W and K.C.W. at the evidentiary hearing. Both the re-signed signatures from K.K.W and
K.C.W matched the March 2018 affidavits. The recantation affidavits from K.K.W and K.C.W
were entered as evidence into the evidentiary hearing record without an objection (Tr. 166 - 167;
Tr. 235 - 237) as Exhibits 1 and 2 in (Vol. II) transcripts. The recantation affidavits and
recantation testimony are exculpatory facts clearly showing that no incident of sexual abuse
happened between April 2012 through February 2013 in Defendant’s home or within the

1 First Evidentiary Hearing refers to the evidentiary hearings held on July 27, July 30, 2018
through August 01, 2018.
Petition By Udoh - Page 4

Hennepin County Jurisdiction. The recantation affidavits and recantation testimony are
impeachment evidence related to the threats, the demands, the pressure, the coaching, the
coercions, the benefits, and the promises made to K.K.W. and K.C.W. to give a statement of
sexual abuse against Defendant between February 2013 through August 2014, and a trial
testimony of sexual abuse against Defendant in August 2014.
On July 27, July 30, 2018 through August 01, 2018, the State post-conviction court first
evidentiary hearing was concluded after the court granted Appellant’s request for a continuance
to October 18, 2018.
Appellant’s Good-Faith Attempt to File A Second Petition For PostConviction Relief Based On The Evidence Received At the First Evidentiary
Hearing

IV.

On September 27, 2018, Appellant filed a second petition for post-conviction relief in Index
No. 234.
REASONS FOR GRANTING THE PETITION
The issues presented in this case is beyond the particular facts and parties involved but for
growing interest of the public, society at large and integrity of the judicial system. Further review
of this case is merited on grounds consistent with Petitioner’s innocence, on grounds consistent with
the violations of Petitioner’s federal constitutional rights and on grounds consistent herein that this
case presents important federal constitutional claims which this Supreme Court should rule.
The weighty national importance of this Court’s jurisdiction on deciding these federal-nature
claims are overwhelming because it will reoccur to others similarly situated, unless resolved by this
Court pursuant to Minn. R. Crim. P. 29.04, Subd. 4 (1) - (5).

Petition By Udoh - Page 5

First, on all grounds presented for consideration, Petitioner, Emem Ufot Udoh. incorporates
and adopts as if re-alleged herein the factual allegations and arguments presented in his principal
brief at the Minnesota Court of Appeals.
Second, on all grounds presented for consideration, Appellant argues that the interests of
justice exception or rules allows this court to hear any matter in this appeal pursuant to Minn. R.
Civ. App. P. 103.04 (permitting our review of any matter as the interests of justice may require);
Whitten v. State, 690 N.W.2d 561, 564 (Minn. Ct. App. 2005)(recognized that the Court of Appeals
of Minnesota has invoked Minn. R. Civ. App. P. 103.04 to address constitutional issues despite an
appellant failure to properly raise the issues for review). See also Minn. R. Crim. P. 28.02, Subd. 11
(allowing review as the interests of justice may require). Appellant has adequately invoked the
interests-of-justice in this court for the review of all Appellant’s claims under the reasoning applied
in Wallace u. State, 820 N.W.2d 843, 849 (Minn. 2012) (construing liberally an accompany motion or
memorandum filed in the court to conclude that a petitioner had sufficiently invoked the interest of
justice exception).
The “interest of justice require [This Court] consideration” State v. Sorenson, 441 N.W.2d 455
(1989) because not granting relief seriously compromises the fairness, integrity, and public
reputation of the judicial proceedings because Appellant’s claims have not been previously decided
by the lower court or the Supreme Court under the reasoning applied in Burch v. State, 2004 Minn.
App. LEXIS 814 (Minn. Ct. App. 2004); Minn. Stat. §590.04, Subd.3 (2018); and Markham v. State,
2019 WL 3293797 *5 (Minn. Ct. App. 2019) where the courts addressed the claims on their merit
despite the Knaffla-bax because of said Appellants (Burch and Markham) good-faith attempts in
prior proceedings.
Petition By Udoh - Page 6

Third, the “interest of justice require [This Court] consideration” due to Petitioner’s lack
of access to the prison law library to complete and to file his principal brief in State v.
Udoh« A19-1129 that resulted from the spread of covid-19 coronavirus pandemic in
Minnesota Department of Corrections in light of Flittie v. Solem. 827 F.2d 276, 280 (8th Cir.
1987)(meaningfully access to court would require at least 3 days per week at the Prison law library
under restricted status); Bounds v. Smith, 430 U.S. 817, 828 (1977) (Prisoner have fundamental
constitutional right to adequate, effective and meaningful access to court to challenge violations of
constitutional rights); Kristian v. Dep’t of Corr., 541 N.W.2d 623, 628 (Minn. Ct. App. 1996)(prison
inmate have a constitutional right to access to the court that derives from the due process). This
implicates Petitioner’s right of access to court under Bound v. Smith.
Appellant argues that this court could still address the merit of his claims under Minn. R.
Civ. P. 103.04 because the interests of justice, newly discovered evidence in the 2018 evidentiary
hearings and affidavits after Appellant’s trial, Appellant’s due diligence and good-faith in A14-2181
and A18-1804, this Court’s August 06, 2019 finding of good-cause in A19-1129, and judicial
economy favor ensuring Appellant’s right to review under the reasoning applied in Boitnott v. State
631 N.W. 2d 362, 369 - 70 (Minn. 2001) and Walker v. State, 394 N.W.2d 192, 195 (Minn. Ct. App.
1986) where the courts addressed the claims on their merit despite the fact that said appellants’
(Boitnott and Walker) claims were not within one of the exceptions to Knaffla and were
procedurally barred.
In light of the fact that the post-conviction court granted Appellant an evidentiary hearing,
Appellant requested subpoena(s) of his trial and appellate counsels but the post-conviction court
denied the request on July 11, 2018. Appellant now points this court to Doppler v. State, 660 N.W.
Petition By Udoh - Page 7

2d 797 (Minn. 2003) and Leake v. State, 737 N.W. 2d 531, 536 (Minn. 2007) to support his argument
that his claim of ineffective assistance of appellate counsel is not barred by the Knaffla rule in this
post-conviction appeal without additional fact findings in light of the reasoning applied in Tate v.
State, 2019 WL 1007771 *2 (Min. Ct. App. 2019) where the lower court materially distinguished
Doppler because the record does not indicate what Appellant discussed with his appellate counsel
with regards to these claims, whether Appellant was aware of the fact that his counsel failed to
bring these claims or if Appellant had the opportunity to discuss these claims with his appellate
counsel. Accordingly, the evidentiary hearing record does not conclusively show that Appellant’s
claim of ineffective assistance of appellate counsel is Knaffla-b&rred without additional fact
findings on Appellant’s attorney-client communication.
Appellant’s claim of ineffective assistance of trial and appellate counsel is not Knaffla barred
because state procedural framework which typically made meaningful opportunity to raise
ineffective assistance of trial counsel claim on direct appeal and on his first post-conviction due to
Petitioner’s lack of access to the prison law library to complete and to file his principal
brief in State v. Udoh„ A19-1129 that resulted from the spread of covid-19 coronavirus
pandemic in Minnesota Department of Corrections highly unlikely is clearly supported by
the Supreme Court in State v. Zernechel, 304 N.W.2d 365, 367 (Minn. 1981) where the court
recognized that direct appeal is not the most appropriate way of raising an issue concerning
ineffective assistance of trial counsel because we do not have the benefit of all the facts concerning
why defense counsel did or did not do certain thing. Such claim is more effectively presented in a
post-conviction proceeding because the trial record is insufficient for a review on the reasonings and
motivations of defense counsel’s action. See Harris v. State, 470 N.W.2d 167, 169 (Minn. Ct. App.
Petition By Udoh - Page 8

1991)(ineffective assistance of counsel claim is properly raised in a post-conviction proceeding and
not in direct appeal); Berg v. State, 557 N.W.2d 593, 595 (Minn. Ct. App. 1996)(same). Such claim is
not Knaffla-harred when the claim requires examination of evidence (2018 evidentiary hearing and
recantation affidavits) outside the trial record and additional fact-findings by the post-conviction
court is required because it cannot be resolved solely on the basis of the trial record and the briefs.
See Massaro v. United States, 538 U.S. 500 (2003) and the U.S. Supreme Court decisions in
Martinez v. Ryan, 566 U.S. 1 (2012); and Trevino v. Thaler, 569 U.S. 413 (2013). Appellant relies on
Martinez and Trevino to challenge the lower court findings of fact and conclusion of law.
Fourth, on all grounds presented for consideration, Appellant argues that this court could
easily conclude that because the record do in fact entail adverse collateral legal consequences,
such as the immigration removal proceeding, juvenile proceeding and lifetime supervised release
Appellant’s claims are not barred by Knaffla or moot under the reasoning applied in State v.
Thompson, 1996 WL 653951 *3 (Minn. Ct. App. 1996); In re Welfare of L.B., 404 N.W.2d 341
(Minn. Ct. App. 1987); State v. Jones, 516 N.W.2d 545, 549 n.l (Minn. 1994); Sibron v. New York
392 U.S. 40, 55 (1968); Brewer v. Iowa, 19 F.3d 1248, 1250 (8th Cir. 1994)(recognizing that a
collateral post-conviction action is moot when there is no possibility that any collateral legal
consequences will be imposed on the basis of the challenged conviction); Leonard v. Nix, 55 F.3d
370, 373 (8th Cir. 1995)(noting that only the possibility of a collateral legal consequences is
needed to avoid mootness) where the courts found those cases and claims not moot or barred
because of the possibility of adverse collateral legal consequences and proceeded to consider the
merit of the case or claims. See the Federal Magistrate Judge’s report and recommendation in
Udoh v. Knutson, 2019 WL 5150141 *3 (D. Minn. May 31, 2019) where the Magistrate Court
Petition By Udoh - Page 9

recognized the adverse collateral legal consequences of Defendant’s conviction that resulted in
the ongoing immigration or removal proceeding, that have been carried out in absentia in
violation of Defendant’s due process right.
Fifth, on all grounds presented for consideration, the interests of justice favors merit
review of all Appellant’s claims because Appellant has alleged a claim of structural error and a
claim of Brady /Discovery violation that would relief Appellant of any procedural default, such as
Knaffla-bar, in this case under the reasoning applied in Amadeo v. Zant, where the Supreme
Court held that the State’s concealment of evidence constitutes cause for Appellant’s failure to
raise a timely challenge. 486 U.S. 214, 224 - 27 (1988). The Supreme Court noted that the
district court correctly formulated the legal rule that “cause” exist for a procedural default when,
as a result of interference by officials, the otherwise defaulted claim was reasonably unknown to
Appellant’s lawyer and Appellant’s lawyer made no intentional decision to forego the claim. See
Banks v. Dretke, 540 U.S. 668, 698 (2004)(state’s withholding of exculpatory evidence at trial
constituted cause for Appellant’s failure to present evidence to support his federal claim in state
court) and Fairchild v. Lockhart, 979 F.2d 636, 640 (8th Cir. 1992)(state’s inadvertent possession
of exculpatory evidence constituted sufficient cause to excuse procedural default). The interests
of justice favors merit review under the reasoning applied in Onyelobi, 932 N.W.2d 272 (Minn.
2019)(considering the merit by assuming that Appellant’s is refining her argument, rather that
raising new arguments on appeal) because Appellant’s claims are refined (not new) arguments
from the supporting facts retrieved from the 2018 recantation affidavits and evidentiary
hearings testimony, public record, and district court record.

Petition By Udoh - Page 10

With regards to all Appellant’s claims, including Appellant’s ineffective assistance of trial
and appellate counsel claims, there is a recognized third Knaffla exception to these claims when
further factual inquiry or additional fact finding in the 2018 evidentiary hearings and
recantation affidavits is required to fairly address the substance of these claims. The additional
facts in the newly discovered evidence such as attorney-client communication, the 2018
recantation affidavits and testimony is necessary in order to evaluate the merit of Appellant’s
claims. These factual and legal basis for raising all Appellant’s claims was not available at the
time of Appellant’s direct appeal because these claims arose during the 2018 post-conviction
proceedings, and the 2018 evidentiary hearings was necessary for Appellant to develop the facts
and legal basis in support of his claims.
Sixth, on all grounds presented for consideration, Appellant argues under Kuhlmann v.
Wilson, 477 U.S. 436, 454 (1986)(holding that the “end of justice” permits a court to examine the
merits of a successive petition “only where the prisoner supplements his constitutional claim
with a colorable showing of factual innocence”) that because of his factual or actual innocence to
these wrongful and false accusations, his claims including any claim that was previously decided
in A14-2181 should not be Knaffla barred.
CONCLUSION
Wherefore, Petitioner seeks relief for a new trial because his substantial and
constitutional rights to a fair trial were violated and this resulted in a fundamental miscarriage
of justice. Appellant prays that this court orders a new trial, release and an acquittal.
Dated: February 19. 2021

Respectfully Submitted,

Emem U. Udoh, 245042, 7600 525™ Street, Rush City, MN 55069
Petition By Udoh - Page 11

